No. 21-.
In The

Supreme Court of tfje Hmtetr States
Davon Nelson
Petitioner,
v.

United States,
Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that a copy of the
Motion for Leave to Proceed in forma pauperis and the Petition for Writ of Certiorari
in Nelson u. United States, No. 21-__ , were served via overnight and electronic mail
on all parties required:
Elizabeth B. Prelogar
Acting Solicitor General
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

'f. Ka.
Date: August 10, 2021

Brent E. Newton

No. 21-.
In The

Supreme Court of tfje fHmteb States
Davon Nelson,
Petitioner,
v.

United States,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.2(b), I hereby certify that the Petition
for Writ of Certiorari in Nelson v. United States, No. 21-

., complies with the page

limitations, as it is 32 pages.
I declare under penalty of perjury that the foregoing is true and correct.

/W
Date: August 10, 2021

Brent E. Newton

